   Peace Corps
   Office of Inspector General




        Final Audit Report:
Peace Corps’ Purchase Card Program
           March 2009
        Final Audit Report:
Peace Corps’ Purchase Card Program
            IG-09-08-A




     ____________________________________
               Gerald P. Montoya
     Assistant Inspector General for Audits




                 March 2009
                          EXECUTIVE SUMMARY
 The Peace Corps did not manage its government purchase card program effectively and
 in accordance with the Office of Management and Budget Circular A-123 Appendix B.
 This occurred because Peace Corps did not ensure adequate internal controls over its
 Government Purchase Card Program. Specifically, Peace Corps:
    •   Did not implement policies and procedures for the use of convenience checks,
        purchase of “Do Not Buy” items, and reoccurring training requirements.
    •   Lacked controls over the account setup, maintenance, and closure processes
        necessary to ensure proper authorization, timely processing, and segregation of
        duties.
    •   Did not conduct adequate monitoring of cardholder accounts and transactions
        and sufficient risk assessments.

 As a result, Peace Corps employees purchased $3,033 of unnecessary items, did not
 always use the most efficient means of payment, and did not fully comply with federal
 purchase card and contracting regulations.

 Peace Corps made significant improvements during FY 2008 and corrected
 deficiencies identified during the audit. However, the Office of Acquisitions and
 Contract Management could further strengthen controls over its Government Purchase
 Card Program by:

    •   Updating Peace Corps Manual section 731, “Purchase Card Program” to
        include convenience check guidance and a continual training process.
    •   Developing a policy that defines the process a cardholder must use and the
        approvals necessary to purchase an item on the “Do Not Buy” list, including the
        purchase of refreshments and furniture for personal use.
    •   Developing a process to verify the direct hire status of all new cardholders
        before issuing a purchase card.
    •   Issuing a policy memorandum reminding cardholders and approving officials to
        notify the agency program coordinator immediately when transferring offices or
        leaving the Peace Corps.
    •   Aligning the risk assessments with internal control standards to include all
        elements required by the Office of Management and Budget.

 Our report contains nine recommendations, which, if implemented, should strengthen
 internal controls and correct the deficiencies in the Peace Corps Government Purchase
 Card Program. Of the nine recommendations made in our report, management fully
 concurred with two recommendations, partially concurred with two recommendations,
 nonconcurred with three recommendations and nonconcurred with parts of two
 recommendations. We closed recommendation B.1 based on management’s
 comments.

Final Audit Report: Peace Corps Purchase Card Program                                     i
                                                       TABLE OF CONTENTS
Executive Summary ............................................................................................................. i

Introduction......................................................................................................................... 1
General ........................................................................................................................................................... 1
Background .................................................................................................................................................... 1
Criteria............................................................................................................................................................ 1
Objectives....................................................................................................................................................... 2

Finding A: Incomplete Policies and Procedures................................................................. 3

Recommendation A: Update Guidance .............................................................................. 7

Finding B: Inadequate Control Activities ......................................................................... 10

Recommendation B: Strengthen Control activities .......................................................... 15

Finding C: Insufficient Monitoring and Risk Assessment................................................ 19

Recommendation C: Increase Frequency Level of Reviews ............................................ 23

Agency Initiatives ............................................................................................................. 28

List of Recommendations ................................................................................................. 29

Questioned Costs .............................................................................................................. 31

APPENDIX A: Objectives, Scope, and Methodology

APPENDIX B: Acronyms and Glossary

APPENDIX C: Management's Response

APPENDIX D: OIG Comments

APPENDIX E: Audit Completion and OIG Contact
                                       INTRODUCTION
    GENERAL                    The Office of Inspector General conducted an audit of the
                               Peace Corps’ Purchase Card Program November 1, 2007 -
                               December 31, 2008. We reviewed all available card
                               statements within the Citibank Card Management System for
                               148 active and 27 closed government purchase card accounts.
                               We performed this audit in accordance with Generally
                               Accepted Government Auditing Standards.


    BACKGROUND                 The government-wide purchase card program was established
                               in 1989 to streamline federal agency acquisition processes by
                               providing an efficient method for obtaining goods and
                               services directly from vendors.

                               The Office of Acquisitions and Contract Management
                               (OACM) manages the Peace Corps Purchase Card Program.
                               The OACM agency program coordinator (APC) and three
                               contract specialists 1 develop purchase card policies, provide
                               training, oversee purchase card use, and report program
                               information to management. The Office of Global Accounts
                               Payable is the designated billing office, responsible for
                               payment of the purchase card invoices. At the end of fiscal
                               year (FY) 2007, Peace Corps was responsible for 148 active
                               purchase card accounts both domestically and overseas. The
                               aggregate monthly credit authorized for all Peace Corps
                               purchase card accounts was approximately $6.4 million.


    CRITERIA                   The Office of Management and Budget (OMB) Circular A-
                               123, Appendix B, “Improving the Management of
                               Government Charge Card Programs,” April 2006, requires
                               agencies to maintain internal controls over government
                               purchase card programs to reduce the risk of fraud, waste, and
                               errors.

                               The Government Accountability Office (GAO), “Standards
                               for Internal Controls in the Federal Government,” November
                               1999, states that internal controls provide reasonable
                               assurance of effective and efficient operations, reliability of
                               financial reporting, and compliance with applicable laws and


1
 References to the APC include the APC and the three contract specialists that assist in the purchase card
management.

Final Audit Report: Peace Corps Purchase Card Program                                                        1
                        regulations. GAO defined the five standards of internal
                        control as control environment, control activities, monitoring,
                        risk assessment, and information and communications.


OBJECTIVES              The overall objective of this audit was to determine if the
                        purchase card program is being managed effectively, and
                        consistent with regulations. Appendix A provides a
                        description of the audit objectives, scope, and methodology.




  Final Audit Report: Peace Corps Purchase Card Program                                   2
     FINDING A                   INCOMPLETE POLICIES AND PROCEDURES

                         The Peace Corps control environment did not ensure that
                         employees were fully aware of the purchase card process
                         and adequately trained on their responsibilities.

                         The GAO, “Standards for Internal Controls in the Federal
                         Government,” states:
                                  Management and employees should establish and
                                  maintain an environment throughout the organization
                                  that sets a positive and supportive attitude toward
                                  internal control and conscientious management. A
                                  control environment provides relevant guidance,
                                  adequate training, and a logical organizational
                                  structure.

                         In April 26, 2007, OACM issued Peace Corps Manual
                         (PCM) section 731, “Peace Corps Purchase Card Program.”
                         By issuing PCM section 731, OACM will help ensure that
                         the Peace Corps complies with federal regulations. However,
                         PCM section 731 did not include procedures for convenience
                         checks and requirements for periodic training. In addition,
                         Peace Corps did not have a policy for cardholders to follow
                         when purchasing items generally considered unallowable.

UNNECESSARY USE OF       Authorized employees use convenience checks when a
CONVENIENCE              vendor is not capable of accepting credit card payments. Use
CHECKS                   is discouraged because:
                             •    Checks bypass some administrative controls because
                                  cardholders may combine the transactions with
                                  purchase card payments to exceed authorized
                                  spending limits.
                             •    Checks do not include the merchant category code
                                  used to identify and prevent purchases from
                                  unauthorized types of vendors.
                             •    Checks require additional time and costs to process.

                         To reduce the costs and risks, Peace Corps restricts the
                         number of accounts authorized to use convenience checks to
                         two offices in headquarters and the recruitment offices. As
                         of September 30, 2007, there were 11 employees authorized
                         to use convenience checks.

                         Employees issuing convenience checks did not always follow
                         the proper procedure for writing checks, because there is no
Final Audit Report: Peace Corps Purchase Card Program                                    3
                         formal guidance for convenience checks. As a result,
                         employees wrote checks to vendors that accepted credit cards
                         and incurred almost $50 of unnecessary service charges. For
                         example:
                             • Two employees wrote checks totaling $3,252 to a
                                vendor for advertising in October 2007, even though
                                the vendor began accepting purchase card payments
                                in September 2007.
                             • Another employee wrote two checks for $76 to a
                               different vendor for balloon helium in June and July
                               2007. Three months earlier the employee used his
                               purchase card to pay the same vendor.

                         OACM sent cardholders the procedure for requesting a
                         convenience check from OACM; the procedure applied to
                         cardholders who did have the authorization to issue
                         convenience checks. The procedure states, “the cardholder
                         should contact the vendor . . . to ensure that the vendor
                         accepts the purchase card as a form of payment.” This
                         procedure helps prevent unnecessary service charges and
                         saves time in processing payments. However, PCM section
                         731 did not describe the convenience checks process for
                         either authorized convenience check users or cardholders that
                         request checks from OACM. Therefore, OACM could not
                         ensure cardholders were fully aware of their responsibilities.

INSUFFICIENT             PCM section 731 requires all new cardholders to complete
TRAINING                 online training and send their test results to the APC before
                         receiving a purchase card. In September 2007, OACM
                         implemented an online training module for new cardholders.
                         The training module is helpful to track new cardholder
                         knowledge and certification; however, OACM failed to
                         implement a process for subsequent training. OMB Circular
                         A-123, Appendix B, requires all program participants to take
                         refresher training at least every three years.

                         Although PCM section 731 states that approving officials
                         and cardholders must take periodic refresher training, it does
                         not specify how often nor require submitting documentation
                         of the training to the APC. During our review, OACM could
                         not provide evidence that program participants obtained
                         periodic training, and informed us that OACM only requires
                         initial training. As a result, the APC did not have assurance
                         that cardholders and approving officials were informed of the
                         most current requirements and did not ensure the purchase
                         card program complied with OMB Circular A-123, Appendix
                         B.
Final Audit Report: Peace Corps Purchase Card Program                                     4
IMPROPER PURCHASE        Cardholders purchased goods and services on the “Do Not
OF REFRESHMENTS          Buy” lists contained in PCM section 731 without proper
                         approval or justification. The “Do Not Buy” lists provide
                         examples of prohibited items that cardholders should not
                         purchase unless they receive consent from an approving
                         official or APC before proceeding. The list includes
                         refreshments, equipment for personal use, office furnishings
                         for personal convenience, and travel expenses.

                         The Government Accountability Office, “Principles of
                         Federal Appropriations Law,” states that appropriated funds
                         are not available to pay for food, including snacks and
                         refreshments, for government employees at their official duty
                         stations. Purchase of these items may violate Title 31, U.S.
                         Code, section 1301(a), which states that agencies may only
                         use public funds for the purpose or purposes for which they
                         were appropriated. In addition to providing personal items,
                         furnishing food at no cost to employees could violate Title 5,
                         U.S. Code, section 5536, which prohibits an employee from
                         receiving compensation in addition to the pay and allowances
                         fixed by law.

                         In FY 2007 and FY 2008, cardholders spent approximately
                         $1,138 in appropriated funds to pay for the following four
                         unauthorized expenses related to food.

                             1. In June 2007, a cardholder purchased $575 in cakes
                                for an Overseas Staff Training graduation ceremony.
                                The cardholder believed that the cakes were
                                permitted as part of a graduation ceremony.

                             2. In January and October 2007, a cardholder purchased
                                $267 of bottled water for a medical officer
                                conference in Washington, D.C. The cardholder
                                documented that the Federal Travel Regulation,
                                January 2004, allows light refreshments to employees
                                attending an official conference.

                                 Although the employees were in travel status, we
                                 question whether the expense was necessary because
                                 the employees received per diem to pay for meals
                                 and incidentals and could easily purchase the water.

                             3. In October and November 2007, a cardholder
                                charged $75.20 for a cake, coffee, and snacks for a
                                medical officer graduation ceremony. Over 100 staff
                                attended, including numerous employees not in travel
Final Audit Report: Peace Corps Purchase Card Program                                     5
                                      status. As a result, the cardholder could not ensure
                                      that only individuals in travel status ate the food.

                                  4. In November 2007, an OACM cardholder used a
                                     convenience check to purchase $221.25 in
                                     refreshments for 25 contract specialists and project
                                     managers. The employee stated that using
                                     appropriated funds was acceptable because it was an
                                     off-site training and the refreshments allowed
                                     employees to work during breaks. However, the
                                     training was in Washington, D.C., which is within
                                     normal commute time for many of the attendees.

                             Public Law 87-293 (Peace Corps Act) 2 authorizes Peace
                             Corps to spend up to $5,000 on entertainment expenses. The
                             Office of the Chief Financial Officer tracks all entertainment
                             expenses using budgetary accounts to ensure purchases
                             qualify as legitimate expenses and do not exceed statutory
                             limits. However, the cardholders did not receive proper
                             approval to purchase the four entertainment related purchases
                             and did not charge the entertainment budget account.

                             In addition, GAO allows exceptions for refreshments
                             including necessary expenses for authorized training and
                             necessary expense for the honorary recognition of the
                             employee or employees receiving the awards. Deciding
                             whether refreshments are acceptable requires a thorough
                             knowledge of appropriation law. Therefore, cardholders
                             should have obtained a legal decision from the Office of
                             General Counsel before purchasing the refreshments to
                             ensure expenses were appropriate and did not violate 31 U.S.
                             Code 1301(a).

UNAUTHORIZED                 Although furniture is acceptable when necessary for an office
PURCHASE OF                  to perform its mission, cardholders purchased furniture
FURNITURE                    intended for personal use without adequately justifying the
                             expense. OACM issued PCM section 731 attachments F “Do
                             Not Buy List Domestic” and attachments G “Do Not Buy
                             List Overseas” describing unacceptable purchases. The list
                             restricts the purchase of equipment and office furnishings
                             except when such items are consistent with work-related
                             objectives and are not “personal convenience” items.
                             Contrary to the “Do Not Buy List,” PCM section 731 permits
                             cardholders to purchase furniture without any stipulation.

2
 Public Law 109-102 and Public Law 110-161 further limited the amount to $4,000 for entertainment
expenses in FY 2007 and FY 2008.

Final Audit Report: Peace Corps Purchase Card Program                                               6
                         The Government Accountability Office, “Federal
                         Appropriation Law,” states that personal items and
                         furnishings may not be purchased with appropriated funds
                         without specific statutory authority. However, in decision B-
                         302993, GAO authorized an agency to purchase appliances
                         because the purchase benefited the agency by increasing
                         efficient operations and better managing building safety. In
                         its decision, GAO recommended developing “an agency
                         policy to ensure uniformity in the use of appropriation to
                         acquire this equipment and determine the usefulness of such
                         appliances for the agency. . .”

                         Peace Corps did not have a process or policy to ensure that
                         cardholders properly justified the purchase of items typically
                         considered unallowable. As a result, two regional
                         recruitment offices purchased equipment for personal use
                         without properly justifying the expense. In June 2007, a
                         recruitment office purchased a refrigerator and a microwave
                         from Best Buy for $1,625. In February 2007, another
                         recruiting office purchased a microwave, blender, and toaster
                         at Bed, Bath, and Beyond and Best Buy; the purchases
                         totaled $270. The purchase of appliances for personal use
                         was unauthorized because the regional recruitment offices
                         could not provide documentation showing that the purchase
                         of appliances was a necessary expense beneficial to the
                         agency.

RECOMMENDATION A                              UPDATE GUIDANCE


                         WE RECOMMEND:
                         1. That the chief acquisition officer, in coordination with
                            the agency program coordinator, update the Peace
                            Corps Manual section 731 to include formal guidance
                            on the use of convenience checks and specific
                            requirements on refresher training for cardholders.
                            Specifically, Peace Corps Manual section 731 must:
                             a. Define acceptable justifications for using
                                convenience checks, required supporting
                                documentation, and the process for requesting and
                                issuing convenience checks.
                             b. Require refresher training for cardholders at least
                                every three years and establish a process for the
                                agency program coordinator to receive and
                                maintain training certificates.
Final Audit Report: Peace Corps Purchase Card Program                                     7
                         Management Comment. The chief acquisition officer
                         concurred with recommendations A.1.a and A.1.b. He stated,
                         “Guidance and procedures for using convenience checks
                         were issued to Cardholders and Approving Officials on
                         November 6, 2008 via email (see Attachment 1). However,
                         we agree that the Peace Corps Manual Section 731 needs to
                         be updated and will target to publish an update by June 30,
                         2009.”

                         The chief acquisition officer further stated, “In the short
                         term, OACM will issue an Acquisition Bulletin to
                         Cardholders and Approving Officials to inform them of this
                         requirement by April 30, 2009. A list of Cardholders and
                         Approving Officials that meet the requirement for refresher
                         training will also be identified and informed. OACM will
                         also establish a tracking system of Cardholders and
                         Approving Officials that require refresher training and will
                         send out monthly notices. Finally, Peace Corps Manual
                         Section 731 will be also updated to require refresher training
                         every three years in accordance with A-123 by June 30,
                         2009.”

                         OIG Response. The chief acquisition officer’s comments
                         were responsive. However, the recommendation will remain
                         open pending update of PCM section 731 and OACM
                         issuance of the Acquisition Bulletin.


                         WE RECOMMEND:

                         2. That the chief acquisition officer, in conjunction with
                            the agency program coordinator, issue a memorandum
                            to cardholders emphasizing the need for proper conduct
                            in areas identified as reoccurring problems to include
                            the improper purchase of refreshments and personal
                            items.

                         Management Comment. The chief acquisition officer
                         concurred with recommendation A.2 and stated, “Currently,
                         OACM does perform transactional reviews and random
                         documentation reviews. Feedback is provided to individual
                         Cardholders and Approving Officials but OACM has not
                         implemented quarterly reports as originally planned to
                         Cardholders and Approving Officials of systemic issues and
                         problems that are found during monthly reviews. By June
                         30, 2009, the chief acquisition officer will institute quarterly

Final Audit Report: Peace Corps Purchase Card Program                                       8
                         reviews of the Purchase Card Program to review and discuss
                         findings resulting from the transactional and documentation
                         reviews. Findings that are found to be systemic will be
                         published in a quarterly report and distributed to Cardholders
                         and Approving Officials.”

                         OIG Response. The chief acquisition officer’s comments
                         were responsive. However, the recommendation remains
                         open pending verification of the quarterly report distributed
                         to cardholders and approving officials.


                         WE RECOMMEND:

                         3. That the chief acquisition officer, in coordination with
                            the Office of General Counsel, develop a policy that
                            defines the process a cardholder must use and the
                            approvals necessary to purchase an item on the “Do Not
                            Buy” list, including the purchase of refreshments and
                            furniture for personal use.

                         Management Comment. The chief acquisition officer
                         nonconcurred with recommendation A.3, stating, “OACM
                         does not believe that additional processes are necessary in
                         this area and the current processes in place and those that are
                         planned (and mentioned herein) are sufficient to prevent an
                         unacceptable level of unauthorized purchases. We believe
                         the additional cost to establish a more stringent process does
                         not support the benefits.”

                         The chief acquisition officer stated, “Of the seven
                         questionable transactions revealed by the audit totaling
                         $3,083 only one transaction of $50 could be validated as a
                         clear cut case of an inappropriate purchase and none were
                         fraudulent or egregious in nature. Two transactions totaling
                         $1,895 were valid and had prior approval by OACM. The
                         remaining four transactions totaling $1,138 are at best
                         questionable and GAO has ruled that purchases of this type
                         (refreshments for ceremonies and training) are valid
                         purchases when certain criteria are met.

                         When the total number of FY07 purchase card transactions
                         (13,315) totaling $6.3M are considered, we believe the de
                         minimis number of questionable transactions and the
                         associated cost (.00048%) of total spend) is testament to the
                         strength of the Peace Corps Purchase Card Program and its
                         internal controls.”
Final Audit Report: Peace Corps Purchase Card Program                                      9
                         OIG Response. The chief acquisition officer’s comments
                         were not responsive. Due to the complexity in interpreting
                         exceptions for purchasing items on the “Do Not Buy List,”
                         we believe that the General Counsel must be involved to
                         ensure that purchases based upon an exception(s) meets the
                         applicable legal principles. Additionally, the cardholder
                         should maintain documentation supporting the decision(s) to
                         purchase items on the “Do Not Buy List” showing that the
                         transaction(s) met legal requirements. At a minimum,
                         OACM should develop clearly written policies procedures
                         for purchasing items on the “Do Not Buy List” to ensure
                         current and future Peace Corps staff follow the necessary
                         steps needed to obtain approval of potentially questionable
                         items.

                         To close this recommendation we request that OACM
                         develop written policy or procedures for purchasing items on
                         the “Do Not Buy List” and provide them to us for review and
                         concurrence. OACM written policy and procedures must
                         include requirements for General Counsel review and
                         approval for any items to be purchased for items on the “Do
                         Not Buy List” to ensure that the purchase meets legal
                         principles.


     FINDING B                    INADEQUATE CONTROL ACTIVITIES

                         OACM did not implement adequate control activities over
                         the purchase card processes.

                         The GAO, “Standards for Internal Controls in the Federal
                         Government,” states:
                                Control activities are the policies, procedures,
                                techniques, and mechanisms that enforce
                                management’s directives and help achieve
                                effective results. Control activities include
                                authorizations, segregation of duties, access
                                restrictions to resources, and timely recording
                                of events.

                         OACM had not established controls to ensure that new
                         purchase card accounts were properly established, spending
                         limits were appropriate, and accounts were closed timely.




Final Audit Report: Peace Corps Purchase Card Program                                   10
ISSUING PURCHASE         To establish a new purchase card account, the cardholder
CARDS                    submits the appropriate purchase card setup form and the
                         acknowledgement form to the APC. The APC validates the
                         cardholder information, verifies credit limits are appropriate,
                         and obtains a copy of the training certificate before issuing a
                         purchase card. However, the APC did not always confirm
                         that the cardholder was an individual employed as a
                         government direct hire, with a properly assigned approving
                         official.

Did Not Verify           OACM did not verify the employment status of purchase
Employment Status        cardholders to ensure that only direct hire employees
                         received cards. When processing overseas purchase card
                         applications, the APC relies on post management to confirm
                         that potential cardholders are direct hires. PCM section 731
                         states that any Peace Corps direct hire employee (U.S. citizen
                         or foreign service national) may be a cardholder, while
                         overseas contractors and domestic non-personal service
                         contractors are not eligible to be cardholders. We confirmed
                         that all of the cardholders as of FY 2007 were direct hires.
                         However, the APC does not have assurance that cardholders
                         are direct hire employees without a process in place to verify
                         cardholder employment status during account set-up.

Improperly Assigning     The APC did not ensure that cards were issued to individuals.
Cards to an Office       OACM issued four purchase cards to an office, “Admin
                         Services,” for vehicle maintenance costs at headquarters.

                         PCM section 731 states that the cardholder is the only
                         individual authorized to use the assigned purchase card and
                         has sole responsibility for expenditures charged against the
                         card.

                         Assigning a purchase card to a group eliminates personal
                         accountability and increases the likelihood of misuse.
                         OACM closed these accounts during the audit and assigned a
                         new account to an individual.

Did not Establish        OACM did not properly assign an approving official to each
Approving Official       cardholder and require the approving official to certify credit
                         card statements before payment. Approving officials are a
                         necessary control to ensure that purchases are appropriate
                         and identify issues early in the process. According to PCM
                         section 731.5.4, the approving official:




Final Audit Report: Peace Corps Purchase Card Program                                      11
                                  •    Ensures that purchases made by the cardholder are for
                                       official government use and adequate funding has
                                       been obtained prior to purchase.
                                  •    Reviews, approves, and signs cardholder monthly
                                       statement of account to include all supporting
                                       documentation.
                                  •    Notifies the APC when a cardholder is leaving the
                                       agency or changing duties.
                                  •    Ensures the APC is informed of any lost or stolen
                                       card.
                                  •    Reports all purchase card misuse and abuse to the
                                       APC.

                              OACM appointed two cardholders as their own approving
                              officials and failed to appoint an approving official for
                              15 cardholders. This allowed cardholders to bypass controls
                              and purchase goods and services without proper
                              authorization. In addition, one OACM employee was a
                              cardholder and had APC capabilities to approve statements,
                              setup accounts, adjust spending limits, and close accounts.

                              The Government Accountability Office, “Standards for
                              Internal Control in the Federal Government,” November
                              1999, states that segregation of duties is a control activity
                              used to reduce the risk of error or fraud. Segregation of
                              duties ensures no one individual controls all key aspects of a
                              transaction or event. Without an approving official, OACM
                              does not ensure proper segregation of duties and therefore
                              increases the likelihood that improper use of purchase cards
                              would not be detected.

Overuse of Auto-              The Peace Corps purchase card process allowed cardholders
Closed Card                   to continue without an approving official, because credit card
Statements                    statements were auto-closed 3 and invoiced if not approved.
                              At the end of each monthly billing cycle, the cardholder and
                              approving official have 8 to 10 days to review and approve
                              transactions posted during that statement period before
                              Citibank auto-closes the statement. There is no formal policy
                              or process to review and approve purchases once a statement
                              has closed. Therefore, the auto-closed statements bypass key
                              internal controls because no one reviews and approve the
                              purchases.



3
  Auto-closed means that the Citibank card management system accepts the charges on the credit card
statement without an approving official’s signature and bills the Peace Corps.

Final Audit Report: Peace Corps Purchase Card Program                                                 12
                         Between October 1, 2006 and February 28, 2008, 71 of the
                         125 active cardholders had credit card statements that were
                         not approved and auto-closed. One cardholder had
                         statements automatically close 12 times within that 16-month
                         period. Some auto-closed statements resulted in errors when
                         the accounting system attempted to match the paid invoice
                         with the correct line of accounting. Peace Corps could
                         prevent some of the data fallout by ensuring approving
                         officials reviewed every credit card statement before
                         processing instead of using auto-close.

Unnecessary Reliance     On other occasions, the APC approved credit card statements
on OACM to Close         for cardholders. The APC explained that this was because
Purchase Card            the approving official was absent from a post, had departed
Statements               Peace Corps, or was unable to access the Citibank Card
                         Management System. The APC also approved statements for
                         cardholders that had an approving official. The approving
                         official sometimes reviewed the charges and sent the APC a
                         written confirmation. However, the APC signed the approval
                         in the Citibank Card Management System without reviewing
                         all of the supporting documentation or verifying the accuracy
                         of the transactions for the statements.

                         During FY 2006 and FY 2007, OACM approved credit card
                         statements for 10 cardholders, including 15 statements for a
                         single individual. Peace Corps increased the likelihood that
                         managers would not identify improper payments by allowing
                         OACM to approve credit card statements and using auto-
                         close.

                         During the audit, OACM began monitoring cardholders
                         statements that auto-closed. OACM issues a notification to
                         the cardholder on the first use of auto-close and notifies the
                         respective supervisor and regional office on subsequent
                         occurrences in the same calendar year. In addition, OACM
                         designated the regional chief administrative officers as the
                         alternate approving official for overseas accounts. This will
                         help reduce the number of auto-closed credit card statements
                         and help ensure that OACM does not need to approve credit
                         card statements when an approving official is away from
                         post.

SPENDING LIMIT           OACM did not ensure cardholders’ spending limits matched
INCREASES                authorizations. Spending limits prevent cardholders from
                         purchasing more than authorized on a single transaction and
                         during a given month. This serves as a control to prevent

Final Audit Report: Peace Corps Purchase Card Program                                     13
                         overspending, but also ensure compliance with the Federal
                         Acquisition Regulation established spending thresholds.

                         The Federal Acquisition Regulation states, “The
                         Government-wide commercial purchase card shall be the
                         preferred method to pay for micro-purchases” and defines
                         micro-purchases as “An acquisition of supplies or services
                         using simplified acquisition procedures, not to exceed the
                         micro-purchase threshold.”

                         The Federal Acquisition Regulation establishes the threshold
                         at $3,000. Each purchase above that amount must comply
                         with additional requirements concerning competition and
                         contract clauses.

                         The APC may adjust spending limits as necessary, but should
                         never exceed the amount authorized in an individual
                         cardholder’s delegation of authority. An individual must
                         have a written delegation of authority to purchase goods and
                         services for the Peace Corps. The Peace Corps Director
                         delegates purchase authority to the chief acquisition officer,
                         country directors, and other management staff. These
                         officials may re-delegate the authority in part or in whole.
                         OACM should consider this delegation of authority when
                         approving spending limits on the purchase card.

                         For overseas purchase card accounts, the country director
                         provides the delegation of authority in a memorandum.
                         OACM then establishes the spending limit noting that the
                         authorized amounts exceeding the micro-purchase level are
                         based on the delegation of authority from the country
                         director. For purchase card accounts in the United States,
                         OACM delegates the purchase authority in a memorandum
                         establishing the spending limit.

                         Cardholder spending limits did not always match a
                         delegation of authority, because OACM increased spending
                         limits for one time use and failed to decrease the amount
                         after use. As a result, four cardholders had single purchase
                         limits greater than the delegation of authority. One
                         cardholder had a spending limit of $25,000 more than his
                         delegation of authority. These cardholders exceeded
                         authorized spending levels and could be personally liable for
                         any unauthorized expense. In addition, OACM could not
                         provide a delegation of authority from the country director
                         for six overseas cardholders authorized amounts exceeding
                         the micro-purchase threshold.

Final Audit Report: Peace Corps Purchase Card Program                                    14
CLOSING ACCOUNTS         In November 2008, the Citibank Card Management System
TIMELY                   implemented an expiration date field that returns temporary
                         spending limits to the original setting upon expiration. Using
                         the expiration field will help ensure that the cardholder
                         spending limits match their delegation of the authority after a
                         making a purchase requiring a temporary increase.

                         Cardholders and approving officials did not notify the APC
                         timely when employees transferred offices or left the agency
                         to ensure prompt closure of purchase card accounts. Closing
                         accounts timely is important to mitigate the risk of misuse
                         and fraud.

                         OMB Circular A-123, Appendix B, suggests that the APC
                         establishes controls to ensure card cancellation when a
                         cardholder leaves the agency.

                         OACM included a requirement in PCM section 731 for
                         cardholders and approving officials to notify the APC
                         immediately when departing from Peace Corps and strongly
                         recommended that the cardholder discontinue use of the
                         purchase card 30 days prior to departing the agency.

                         However, of the 50 purchase card accounts closed during a
                         14-month period (February 2007 - March 2008), OACM did
                         not close approximately 28% (14) within one week of a
                         cardholder departure or transfer. Charges continued on 11
                         accounts for as many as 98 days after the employee left. One
                         account remained open nearly a month after the cardholder
                         was fired because no one informed the APC. In some
                         instances, the approving official requested the account
                         remain open while convenience checks or other charges
                         posted to the account.

                         When possible an office should begin transitioning the
                         purchase card responsibilities before the cardholder leaves to
                         ensure all credit card charges clear before departure.

RECOMMENDATION B                     STRENGTHEN CONTROL ACTIVITIES


                         WE RECOMMEND:

                         1. That the chief acquisition officer develop a process to
                            verify the direct hire status for all new cardholders
                            before issuing a purchase card.

Final Audit Report: Peace Corps Purchase Card Program                                      15
                         Management Comment. The chief acquisition officer
                         partially concurred with recommendation B.1 and stated,
                         “During training (Purchase Card CBT and OST), it is made
                         clear to Cardholders and Approving Officials that only US
                         direct hires and Foreign Service Nationals are allowed to be
                         Cardholders. We believe this training is effective in that the
                         OIG audit did not reveal a single instance where a purchase
                         card had been issued to a contractor. We also do not believe
                         a new process is necessary to verify the direct hire status.
                         However, we can reinforce this requirement by modifying
                         the acknowledge and approval forms for new Cardholders to
                         require the Approving Official certify that the Cardholder is
                         not a contractor (PSC or otherwise) and that they are a US
                         direct hire or Foreign Service National. Approving Officials
                         will be required to self certify on the acknowledgement and
                         approval forms of their US direct hire or Foreign Service
                         National status.”

                         OIG Response. The chief acquisition officer’s comments
                         were responsive. We accept the chief acquisition officer’s
                         partial concurrence because requiring self-certification of
                         employment status addresses our recommendation to verify
                         the direct hire of new cardholders before issuing a purchase
                         card and provides greater assurance of cardholders’
                         qualification.


                         WE RECOMMEND:

                         2. That the chief acquisition officer, in coordination with
                            the agency program coordinator, issue a policy
                            memorandum reminding cardholders and approving
                            officials to notify the agency program coordinator
                            immediately when transferring offices or leaving the
                            Peace Corps.

                         Management Comment. The chief acquisition officer
                         partially concurred with recommendation B.2 and stated,
                         “The requirement to notify the Agency Program Coordinator
                         when a Cardholder and Approving Official depart the agency
                         is addressed in the Purchase Card training and MS 731. We
                         do recognize that there might be a need for reminders but
                         believe that a one time memo reminding Cardholders and
                         Approving Officials of this requirement is probably
                         insufficient. As part of the quarterly report we plan to
                         institute to communicate our monthly review findings, we

Final Audit Report: Peace Corps Purchase Card Program                                     16
                         will periodically remind Cardholders and Approving
                         Officials of the requirement to notify the Agency Program
                         Coordinator immediately if they depart the agency or leave
                         their current position.”

                         OIG Response. The chief acquisition officer’s comments
                         were responsive. We accept the chief acquisition officer’s
                         partial concurrence because a reminder in the quarterly report
                         to notify the agency program coordinator of any departures
                         and transfers will satisfy the intent of the recommendation.
                         However, we note that the notification(s) must be made
                         before the individuals departs the agency or leaves the
                         current position. The recommendation remains open pending
                         receipt of the June 2009 quarterly report.


                         WE RECOMMEND:

                         3. That the agency program coordinator ensure
                            cardholder spending limits are appropriate and
                            supported by proper authorization. Specifically,
                             a. Maintain documentation supporting the delegated
                                procurement authority for all cardholder accounts
                                including any permanent increases or decreases in
                                the single purchase authority and monthly cycle
                                limits.

                         Management Comment. The chief acquisition officer
                         concurred with recommendation B.3.a. He stated, “OACM
                         does require supporting documentation and copies of the
                         Cardholder’s delegated procurement authority to raise the
                         single purchase limit. A request to increase the monthly
                         cycle must also be documented and supported. These strict
                         controls were not consistently being followed prior to mid
                         FY07 and we recognize that there might be a few Cardholder
                         files without adequate documentation to support their
                         spending limit. OACM will review all Cardholder files to
                         ensure they are up to date and include proper documentation
                         by April 30, 2009.”

                         OIG Response. The chief acquisition officer’s comments
                         were responsive. No further action is necessary.


                             b. Update overseas cardholder files to ensure that each
                                file contains a copy of the most current re-delegated

Final Audit Report: Peace Corps Purchase Card Program                                   17
                                procurement authority and that the amount
                                delegated to each cardholder is equal or more than
                                the amount established in the Citibank card
                                management system.

                         Management Comment. The chief acquisition officer
                         concurred with recommendation B.3.b and stated, “OACM
                         does require supporting documentation and copies of the
                         Cardholder’s delegated procurement authority to raise the
                         single purchase limit. A request to increase the monthly
                         cycle must also be documented and supported. These strict
                         controls were not consistently being followed prior to mid
                         FY07 and we recognize that there might be a few Cardholder
                         files without adequate documentation to support their
                         spending limit. OACM will review all Cardholder files to
                         ensure they are up to date and include proper documentation
                         by April 30, 2009.”

                         OIG Response. The chief acquisition officer’s comments
                         were responsive. No further action is necessary.


                             c. Establish a written policy and procedure to reset the
                                temporarily increased spending limits using the
                                Citibank card management system expiration date
                                field.

                         Management Comment. The chief acquisition officer
                         nonconcurred with recommendation B.3.c and stated, “The
                         new Citibank card system permits an expiration date to be
                         established when temporary spending limits are set. Based
                         on the expiration date established, the system automatically
                         resets to the permanent spending limit after that date.
                         Therefore, it is not necessary to establish a written policy and
                         procedure.”

                         OIG Response. The chief acquisition officer’s comments
                         were not responsive. Although the new Citibank card system
                         permits an expiration date for temporary spending limits, it is
                         not a required field. To strengthen internal controls, the chief
                         acquisition officer must require that staff use the expiration
                         date field for temporary spending limits to ensure this control
                         is effective. Requiring use of the expiration date field in
                         written standard operating procedures or other policy
                         guidance will ensure that current and future purchase card
                         managers use the spending limit expiration date as a control

Final Audit Report: Peace Corps Purchase Card Program                                       18
                         to reduce the risk of unauthorized purchases.

                         To close the recommendation, we request that the chief
                         acquisition officer develop a standard operating procedure or
                         other guidance to include instructions on increasing spending
                         limits and using the expiration date field.


     FINDING C                   INSUFFICIENT MONITORING AND RISK
                                            ASSESSMENT

                         OACM did not conduct sufficient monitoring of the
                         cardholder accounts and excluded important information
                         from the annual risk assessments and reports to OMB.

                         The GAO, “Standards for Internal Control in the Federal
                         Government,” states:

                                Monitoring should assess the quality of
                                performance over time and ensure that the
                                findings of audits and other reviews are promptly
                                resolved.

MONITORING               Monitoring is performed continually within the agency
                         operations and includes regular supervisory activities,
                         comparisons, and reconciliations. Monitoring also
                         provides an assurance that the agency established
                         controls to mitigate risks identified during the risk
                         assessment. This information should be recorded and
                         communicated timely to management and others who
                         need it.

OACM REVIEWS             PCM section 731 describes the two review processes
                         conducted by the APC to monitor and detect inappropriate
                         purchases and other purchase card activities. The guidance
                         states that the APC will conduct monthly transaction reviews,
                         and randomly selected document reviews. Until January
                         2008, the review process was limited to transaction reviews.

                         During the transaction reviews, the APC reviews a monthly
                         report from the Citibank card management system and
                         searches for anomalies such as purchases from prohibited
                         vendors, purchases above spending limits, and potential split
                         purchases. However, the reports did not include useful
                         information such as cardholder notes describing a
                         transaction, accounting information, purchase order number,

Final Audit Report: Peace Corps Purchase Card Program                                    19
                              and whether the credit card statement was approved. OACM
                              employees failed to use the credit card statement information
                              or accounting system information to assist in their review
                              process. 4 Further, the APC usually only requested an
                              explanation from the cardholder for each anomaly.
                              During FY 2007, cardholders purchased questionable items
                              such as the refreshments and furniture previously discussed
                              in the “Training” paragraph. OACM employees stated that
                              they identified some of the questionable purchases during
                              their transaction reviews, but the cardholder explanations
                              were routinely accepted. One OACM employee described
                              the conversations with cardholders as more of a training
                              discussion.

Identifying the Most          OACM did not always use the most efficient method of
Efficient Purchase            payment because cardholders used the government purchase
Method                        card to purchase goods and services from vendors when a
                              blanket purchase agreement would have saved time and
                              money. A blanket purchase agreement eliminates some
                              contracting and open market costs; provides discounts;
                              satisfies recurring requirements; reduces administrative
                              efforts by eliminating repetitive, individual orders and
                              payments; and streamlines ordering procedures.

                              We identified 13 vendors that cardholders paid routinely
                              where Peace Corps may benefit from issuing a blanket
                              purchase agreement or contract. For example, the regional
                              recruitment offices paid at least $90,000 in FY 2007 to a
                              vendor for advertising expenses using the purchase card,
                              convenience checks, and PayPal. One cardholder made 13
                              charges totaling $10,246 in December 2007 and 14 charges
                              for $9,586 in November 2007. In addition, six purchase card
                              transactions to the vendor exceeded the micro-purchase
                              threshold of $3,000.

                              The Office of Volunteer Recruitment and Selection (VRS)
                              should have identified the advertising needs during
                              acquisition planning and determined that the costs required a
                              contract mechanism such as a contract or blanket purchase
                              agreement. The VRS chief administrative officer said that
                              she knew the advertisement costs should have been procured
                              by contract, but she allowed cardholders to continue charging
                              the advertising expenses because the service was specialized
                              and the advertisement was successful.

4
  The accounting system contains purchase order number and requesting information that indicates whether
a purchase was approved and funds were verified before the purchase.

Final Audit Report: Peace Corps Purchase Card Program                                                20
                         In March 2008, OACM began developing a blanket purchase
                         agreement to provide for advertising expenses and issued the
                         agreement on January 7, 2009. This will provide recruiters
                         with a more efficient method of selecting and purchasing
                         advertising services. The Peace Corps might also benefit
                         from a blanket purchase agreement for other services such as
                         dental and medical supplies.

Document Review          During the audit, OACM implemented a document review
Process                  process to identify issues concerning supporting
                         documentation and potential misuse of purchase cards. After
                         the first review, OACM identified common problems, such
                         as cardholders did not maintain similar documents to support
                         obligations. Based on their results, OACM prepared
                         guidelines for cardholders on the specific documentation
                         necessary to support transactions. In addition, OACM plans
                         to implement the Citibank Program Audit Tool, which will
                         automatically identify questionable purchases and streamline
                         the monitoring process.

                         We encourage the OACM to continue improving the review
                         process through additional document reviews and the
                         Citibank Program Audit Tool and develop guidelines for the
                         cardholders as needed.

RISK ASSESSMENT          OACM did not provide all of the pertinent information in
AND COMMUNICATION        their risk assessments and reports to OMB. OMB Circular
                         A-123 Appendix B states that agencies must implement risk
                         management controls, policies, and practices in
                         implementing charge card management programs. It also
                         requires agencies to submit an annual report on the purchase
                         card data and performance metrics. Although OACM
                         conducted risk assessments and annual reports in FY 2007
                         and FY 2008, it did not include the results of recent Inspector
                         General reports and OACM reviews.

                         The annual risk assessment is a continual process of
                         determining risks that could impede the efficient and
                         effective achievement of the program objectives, identifying
                         the controls in place to mitigate those risks, and assessing
                         whether the controls are operating effectively. To conduct
                         risk assessments, OACM used a simple questionnaire
                         containing eight questions, five for inherent risk and three for
                         control environment. Although the questionnaire addressed
                         one of the GAO internal control standards, it did not include
                         sections discussing control activities, monitoring, and
                         information communications.

Final Audit Report: Peace Corps Purchase Card Program                                       21
                             •   OACM did not include required controls such as
                                 reviewing cardholder statements, ensuring separation
                                 of duties, maintaining a master file of cardholder
                                 accounts and training records, and analyzing data to
                                 detect delinquency, fraud, and misuse.

                             •   OACM did not include additional controls the Peace
                                 Corps had implemented to ensure compliance with
                                 legal requirements and PCM section 731.
                                 Specifically, OACM did not discuss the use of formal
                                 appointment letters defining spending limits,
                                 Merchant Category Code that prevent unauthorized
                                 purchases, and purchase logs used to maintain a
                                 record all cardholder transactions.

                             •   The FY 2007 Risk Assessment stated that the OACM
                                 initiated transactional reviews in early FY 07 and the
                                 FY 2008 Risk Assessment stated that OACM initiated
                                 documentation reviews in December 2007. However,
                                 the risk assessment did not discuss the results.
                                 OACM should discuss the results and determine if
                                 controls are operating effectively.

                             •   In FY 2007, the Peace Corps Office of Inspector
                                 General identified purchase card issues and weak
                                 controls in six of nine post audit reports issued that
                                 year. OACM did not mention any of these reports in
                                 their risk assessment. The post audits found that five
                                 of the posts made purchases without pre-approval
                                 from the approving official, one post also did not
                                 maintain a purchase card log, and one post did not use
                                 its purchase card.

INSUFFICIENT             OMB also requires agencies to report purchase card statistics,
INFORMATION IN THE       processes, controls, and reviews in an annual report. In FYs
OMB ANNUAL               2007 and 2008, Peace Corps provided the necessary statistics
REPORT                   to OMB, but did not include many of the purchase card
                         controls and recent reviews. By providing all pertinent
                         information in the risk assessments and annual reports,
                         management will have more assurance that the Peace Corps
                         purchase card program includes controls that effectively
                         mitigate the risk of fraud, waste, and abuse. OACM should
                         improve the risk assessments by discussing the GAO internal
                         control standards and including all elements discussed in
                         OMB Circular A-123 Appendix B. OACM should then use
                         the information gathered during risk assessment to report the
                         purchase card processes and controls to OMB.

Final Audit Report: Peace Corps Purchase Card Program                                   22
RECOMMENDATION C               INCREASE FREQUENCY AND LEVEL OF REVIEWS


                         WE RECOMMEND:

                         1. That the Office of Acquisitions and Contract
                            Management strengthen the transactional review
                            process, by:
                             a. Developing standard operating procedures for the
                                agency program coordinator and staff to use when
                                conducting transaction and document reviews.

                         Management Comment. The chief acquisition officer
                         nonconcurred with recommendation C.1.a. He stated, “In
                         January 28, 2008, OACM developed and currently uses a
                         checklist to ensure a consistent and thorough review (see
                         Attachment 2). We believe the checklist along with training
                         of the individuals assigned to manage the Program is
                         sufficient for reviews of this nature. We will continue to
                         evolve the checklist to make it more effective as new issues
                         surface and will take advantage of the new Citibank data
                         mining tools when they become available.”

                         OIG Response. The chief acquisition officer’s comments
                         were responsive. We acknowledge the chief acquisitions
                         officer’s timely corrective actions. The documentation
                         review checklist developed during the audit on January 28,
                         2008 addresses our recommendation and will help OACM
                         conduct documentary reviews.


                             b. Reviewing purchases to identify goods and services
                                that may benefit from a blanket purchasing
                                agreement or contract.

                         Management Comment. The chief acquisition officer
                         nonconcurred with recommendation C.1.b. He stated, “One
                         of OACM’s strategic goals is to pursue opportunities to
                         streamline the acquisition process and save cost. A key
                         strategy in accomplishing this goal is strategic sourcing. In
                         2006, OACM conducted an agency level spend analysis
                         using PRISM data and Citibank purchase card data to
                         identify recurring requirements and to facilitate strategic
                         sourcing opportunities. Since then, OACM has established
                         approximately 30 blanket purchase agreements or IDIQ
                         contracts. The blanket purchase agreement that was

Final Audit Report: Peace Corps Purchase Card Program                                    23
                         established for advertising services (cited in the audit)
                         resulted from a need identified in 2007. It’s important to
                         note that many of these initiatives require the support of the
                         using or requiring office and must compete with other
                         priorities.

                         The chief acquisition officer further stated, “OACM has and
                         will continue to use blanket purchase agreements and other
                         procurement strategies to support its strategic goals and
                         objectives.”

                         OIG Response. The chief acquisition officer’s comments
                         were not responsive. The chief acquisition officer stated that
                         a review was conducted in 2006 to identify goods and
                         services that could benefit from blanket purchase agreements.
                         However, our audit identified goods and services repeatedly
                         purchased in 2007 and 2008 that may benefit from blanket
                         purchase agreements or other cost saving contract
                         mechanisms. In order to maintain effective stewardship of
                         the Purchase Card Program, the chief acquisition officer
                         should perform due diligence by reviewing of the most
                         economic and efficient contracting mechanism(s) with the
                         goal toward achieving the best value for the Peace Corps and
                         the taxpayer. Proactive monitoring to identify multiple
                         purchases from the same vendor may indicate opportunities
                         for additional cost savings and, thus, should be conducted
                         regularly.

                         We request that the chief acquisition officer take a proactive
                         approach and review purchases of goods and services that
                         would benefit from blanket purchasing agreements. To close
                         the recommendation, the chief acquisition officer needs to
                         establish written procedures to perform spending analyses
                         and identify potential blanket purchase agreements, in a
                         standard operating procedure or other guidance.


                             c. Implementing the Citibank Data Mining software to
                                identify transactions with potential problems.

                         Management Comment. The chief acquisition officer
                         partially concurred with recommendation C.1.c and stated,
                         “The new Citibank Data Mining software is not yet functional.
                         However when it does become available, OACM will take
                         advantage of this new capability.”



Final Audit Report: Peace Corps Purchase Card Program                                     24
                         OIG Response. The chief acquisition officer’s comments
                         were responsive. We understand that the date for
                         implementing the Citibank Data Mining software is unknown
                         and beyond the chief acquisition officer’s control. Therefore,
                         we will close the recommendation when the chief acquisition
                         officer fully implements the data mining software when it
                         becomes available.


                         WE RECOMMEND:

                         2. That the Office of Acquisitions and Contract
                            Management develop a formal policy and process for
                            reviewing the purchases of auto-closed statements as a
                            priority before approving the purchase card invoice to
                            detect potential misuse of purchase cards.

                         Management Comment. The chief acquisition officer
                         nonconcurred with recommendation C.2. He stated, “A
                         formal policy already exists to address auto-closed
                         statements (MS 731 paragraph 7-6). OACM sends an email
                         to the Approving Official and Cardholder immediately after
                         the cycle closes to remind program participants to review the
                         monthly statement for accuracy and approve the statement so
                         that it will not auto-close. If a statement auto-closes, OACM
                         sends the Approving Official an email to confirm that all of
                         the transactions are appropriate and approved. This auto-
                         close process verifies that the Approving Official is
                         validating all transactions as being correct and proper for
                         payment from funds designated prior to purchase. It is
                         unrelated to the approval of the purchase card invoice for
                         payment. One of the driving factors of the Purchase Card
                         program allows for Citibank (the purchase card vendor) to be
                         paid as soon as possible so that the Peace Corps can
                         accumulate rebates and therefore savings to the agency. If
                         there are potential misuses or errors found by either the
                         Cardholder or Approving Official on the purchase card
                         statement, a dispute can be handled after the fact within a
                         specific timeframe. If the Peace Corps wins the dispute, the
                         Cardholder’s statement is credited the appropriate amount. If
                         the Peace Corps loses the dispute, then no action is required
                         as the statement has already been paid.”

                         The chief acquisition officer further stated, “As part of the
                         chief acquisition officer Program Reviews, auto close trends
                         will be reviewed and tracked to ensure compliance with the
                         existing policy.”

Final Audit Report: Peace Corps Purchase Card Program                                    25
                         OIG Response. The chief acquisition officer’s comments
                         were not responsive. Although PCM section 731.7.6
                         discusses the disciplinary actions for auto-close statements, it
                         does not discuss the process that OACM should use to ensure
                         the transactions are adequately reviewed for auto-closed
                         statements. As a result, OACM needs to implement a
                         process to confirm transactions are appropriate when credit
                         card statements are auto-closed in standard operating
                         procedures or other written guidance. Written procedures are
                         a critical internal control to strengthen the agency’s Purchase
                         Card Program by providing important guidance to
                         coordinators and staff to ensure that purchases are not paid
                         without the proper approval.

                         Therefore, the chief acquisition officer must develop standard
                         operating procedures for OACM to include the process used
                         for approving auto-closed statements. These procedures need
                         to include examples of the emails notifications to cardholders
                         that allow auto-closed statement already incorporated in
                         OACM process.


                         WE RECOMMEND:

                         3. That the Office of Acquisitions and Contract
                            Management, in coordination with the chief financial
                            officer, improve the purchase card annual risk
                            assessment to include a discussion of each internal
                            control standards and all elements required by Office of
                            Management and Budget Circular A-123, Appendix B.
                            The Office of Acquisitions and Contract Management
                            must use the information gathered during risk
                            assessment to report the purchase card processes and
                            controls to Peace Corps management and the Office of
                            Management and Budget.

                         Management Comment. The chief acquisition officer
                         nonconcurred with recommendation C.3. He stated, “OACM
                         recognizes that previous reports to OMB may not have
                         addressed all of the internal control elements as outlined in
                         A-123. However, the Office of the Chief Financial Office
                         (OCFO) is the agency lead for this program and OACM
                         provides information as requested by OCFO which is
                         incorporated into the report and submitted on behalf of the
                         agency. We recognize OACM’s supporting role but since
                         OCFO is the agency lead, we do not believe responsibility
                         for this finding is properly assigned.”
Final Audit Report: Peace Corps Purchase Card Program                                    26
                         OIG Response. The chief acquisition officer’s comments
                         were not responsive. The chief acquisition officer is
                         responsible for OACM’s internal control program. PCM
                         section 784.5.3 states, “Peace Corps office heads are
                         responsible for internal control within their offices. . . Office
                         heads shall:
                            (a) Continuously monitor and improve the
                                effectiveness of internal control associated with
                                their programs. This continuous monitoring,
                                and other periodic assessments, will provide the
                                basis for the Director's annual assessment of,
                                and report on, internal control.

                           (b) Promptly implement approved improvements
                               identified by their own assessments, the Office
                               of Inspector General reports, and
                               recommendations of the independent auditors or
                               the SAT [Senior Assessment Team].”

                         Therefore, the chief acquisition officer’s must develop a
                         robust internal control process to identify risks, implement
                         controls to mitigate those risks, and monitor the effectiveness
                         of the controls. OMB Circular A-123, Appendix B clearly
                         defines many risks and mitigating controls associated with
                         government purchase card programs. To close the
                         recommendation we request documentation describing how
                         the OACM risk assessment will address key internal controls
                         addressed in OMB Circular A-123, Appendix B.




Final Audit Report: Peace Corps Purchase Card Program                                        27
                            AGENCY INITIATIVES
 In fiscal years 2007 and 2008, OACM took steps to improve the Peace Corps
 Government Purchase Card Program.

     • On April 26, 2007, OACM issued formal policies and procedures in PCM
       section 731, Peace Corps Purchase Card Program and developed an online
       training course that new cardholders must pass before card issuance.

     • OACM also strengthened control activities by implementing merchant category
       codes that prevent charges to unauthorized vendors.

     • To enhance monitoring, the APC and staff conducted reviews of supporting
       documentation. The staff selects purchase card transactions and requests the
       support from the cardholders to validate the purpose is legitimate and the
       amount is appropriate.

     • The APC also streamlined Peace Corps purchasing for common goods and
       services by developing new blanket purchase orders.

 These initiatives combined with corrective actions taken in response to this report will
 help promote efficiency and ensure compliance with federal regulations.




Final Audit Report: Peace Corps Purchase Card Program                                       28
                       LIST OF RECOMMENDATIONS
WE RECOMMEND:

A.1. That the chief acquisition officer, in coordination with the agency program
     coordinator, update the Peace Corps Manual section 731 to include formal guidance
     on the use of convenience checks and specific requirements on refresher training for
     cardholders. Specifically, Peace Corps Manual section 731 must:
     a. Define acceptable justifications for using convenience checks, required
        supporting documentation, and the process for requesting and issuing
        convenience checks.
     b. Require refresher training for cardholders at least every three years and establish
        a process for the agency program coordinator to receive and maintain training
        certificates.

A.2. That the chief acquisition officer, in coordination with the agency program
     coordinator, issue a memorandum to cardholders emphasizing the need for proper
     conduct in areas identified as reoccurring problems to include the improper
     purchase of refreshments and personal items.

A.3. That the chief acquisition officer, in coordination with the Office of General
     Counsel, develop a policy that defines the process a cardholder must use and the
     approvals necessary to purchase an item on the “Do Not Buy” list, including the
     purchase of refreshments and furniture for personal use.

B.1. That the chief acquisition officer develop a process to verify the direct hire status
     for all new cardholders before issuing a purchase card.

B.2. That the chief acquisition officer, in coordination with the agency program
     coordinator, issue a policy memorandum reminding cardholders and approving
     officials to notify the agency program coordinator immediately when transferring
     offices or leaving the Peace Corps.

B.3. The agency program coordinator ensure cardholder spending limits are appropriate
     and supported by proper authorization. Specifically,
     a. Maintain documentation supporting the delegated procurement authority for all
        cardholder accounts including any permanent increases or decreases in the
        single purchase authority and monthly cycle limits.
     b. Update overseas cardholder files to ensure that each file contains a copy of the
        most current re-delegated procurement authority and that the amount delegated
        to each cardholder is equal or more than the amount established in the Citibank
        card management system.



Final Audit Report: Peace Corps Purchase Card Program                                        29
     c. Establish a written policy and procedure to reset the temporarily increased
        spending limits using the Citibank card management system expiration date
        field.

C.1. The Office of Acquisitions and Contract Management strengthen the transactional
     review process, by:

     a. Developing standard operating procedures for the agency program coordinator
        and staff to use when conducting transaction and document reviews.
     b. Reviewing purchases to identify goods and services that may benefit from a
        blanket purchasing agreement or contract.
     c. Implementing the Citibank Data Mining software to identify transactions with
        potential problems.

C.2. The Office of Acquisitions and Contract Management develop a formal policy and
     process for reviewing the purchases of auto-closed statements as a priority before
     approving the purchase card invoice to detect potential misuse of purchase cards.

C.3. The Office of Acquisitions and Contract Management, in coordination with the
     chief financial officer, improve the purchase card annual risk assessment to include
     a discussion of each internal control standards and all elements required by Office
     of Management and Budget Circular A-123, Appendix B. The Office of
     Acquisitions and Contract Management must use the information gathered during
     risk assessment to report the purchase card processes and controls to Peace Corps
     management and the Office of Management and Budget.




Final Audit Report: Peace Corps Purchase Card Program                                  30
                             QUESTIONED COSTS

We identified certain questioned costs during the course of the audit. We list the costs
below with a description and the title of the section in the report where we discuss the
amounts.


   Report Section                     Description                        Amount*
Finding A.              Service charges for unnecessary use of
Convenience Checks      convenience checks instead of the                       $50
                        purchase card.
Finding A. Training.
                      Purchase of cakes for a graduation
Improper Purchase of                                                           $575
                      ceremony.
Refreshments
Finding A. Training.
Improper Purchase of Purchase of water for training attendees.                 $267
Refreshments
Finding A. Training. Purchase of a cake, coffee, and snacks
Improper Purchase of for an Overseas Staff Training                             $75
Refreshments          graduation ceremony.
Finding A. Training.
                      Purchase of refreshments for an off-site
Improper Purchase of                                                           $221
                      office meeting.
Refreshments
Finding A. Training.
                      Purchase of a refrigerator and a
Improper Purchase of                                                         $1,625
                      microwave for an office kitchen.
Furniture
Finding A. Training.
                      Purchase of a microwave, blender, and
Improper Purchase of                                                           $270
                      toaster for an office kitchen.
Furniture
TOTAL                                                                        $3,083
*Amounts are rounded to the closest dollar.




Final Audit Report: Peace Corps Purchase Card Program                                      31
APPENDIX A

           OBJECTIVES, SCOPE, AND METHODOLOGY
Mr. Bradley Grubb performed the audit and Mr. Gerry Montoya supervised.               The
objectives of this audit were:

     ¾   To determine if the purchase card program is being managed effectively.
     ¾   To determine if agency personnel authorized to use the card are following the
         Federal Acquisition Regulation, Peace Corps’ policies and procedures, and
         other applicable guidance.
     ¾   To evaluate the effectiveness of the agency’s internal controls associated with
         the purchase card program.
     ¾   To identify and assess areas with potential risks to the purchase card program.

We based our audit conclusions on information from the following three primary sources:
document and data analysis, interviews, and direct observations. We reviewed all
available credit card statements for approximately 148 active and 27 closed government
purchase card accounts and related activities managed by OACM as of September 30,
2007. We used the Citibank Card Management System to search for transactions that
were anomalies and potential issues. We obtained and reviewed supporting
documentation for 97 judgmentally selected transactions that had potential issues.

This audit was conducted in accordance with Generally Accepted Government Auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that evidence obtained provided a
reasonable basis for our findings and conclusions based on our audit objectives.

We relied on computer-processed data from Peace Corps’ personnel tracking system and
the Citibank Card Management System. While we did not test the system controls, we
compared supporting documentation with the records contained in the systems to
determine that the information generated by the system was sufficiently reliable for the
audit objectives.
APPENDIX B

                       ACRONYMS AND GLOSSARY

ACRONYMS

APC                                                       Agency Program Coordinator
FY                                                                         Fiscal Year
GAO                                                 Government Accountability Office
OACM                                  Office of Acquisitions and Contract Management
OMB                                                 Office of Management and Budget
PCM                                                               Peace Corps Manual



GLOSSARY

Blanket Purchase Agreement. A simplified acquisition method that government
agencies use to fill anticipated repetitive needs for supplies or services.

Convenience Check. A check charged as a cash advance to the credit card account.
Peace Corps authorizes a limited number of individuals to use convenience checks and
only when the vendor does not accept credit cards.

Delegation of Authority. A written authorization assigning the administration and
operation authority defined in the Peace Corps Act from the Director of the Peace Corps
to an individual or subsequent redelegation to another Peace Corps employee to exercise
all or part of his or her delegated authority.

Direct Hire. Individuals hired as either U.S. citizens in the civil service or Foreign
Service appointed under statutory authorities or non-U.S. citizen, foreign service
nationals, appointed under the authority of the Foreign Affairs Act of 1961, as amended.

Internal Control. An integral component of an organization’s management that
provides reasonable assurance as to the effectiveness and efficiency of operations,
reliability of financial reporting, and compliance with applicable laws and regulations.

Spending Limits. The maximum dollar amount a cardholder can charge using their
purchase card account in one transaction (transaction limit) and in a month (cycle limit).
The Citibank Card Management System includes a control to enforce the spending limit
based on the amounts specified during initial cardholder setup.
APPENDIX C

             MANAGEMENT’S RESPONSE TO
              THE PRELIMINARY REPORT
TO:            Kathy A. Buller

FROM:          Carey Fountain, Chief Acquisition Officer

DATE:          March 24, 2009

SUBJECT:       OACM Response to the Preliminary Report on the Purchase Card
Program

Despite the many improvements OACM has made to the Peace Corps Purchase Card
Program over the past few years, we acknowledge that there are still areas that need
improvement. We appreciate OIG’s efforts and believe the Peace Corps Purchase
Card Program will emerge even stronger as a result of the audit.

We do however take exception to OIG’s overall assessment of the program (“not
being managed effectively”). We do not believe this conclusion is supported by the
facts or findings.

The audit revealed 7 questionable transactions of 13,315 total transactions totaling
$3,083. This represents 0.00048% of Peace Corps total purchase card expenditures of
$6.3M for FY07. Of the seven transactions questioned, it was subsequently found by
OACM that only one of these transactions in the amount of $50 (convenient check
fees) was subsequently determined to be inappropriate.

We believe that these results are one of the best indicators of program effectiveness.
It is our hope that the overall conclusion reached by OIG will be reassessed based on
our responses.

OACM concurs or partially concurs with 8 of the 14 recommendations. Attached is
our response to each recommendation with a description of the back-up
documentation if applicable.

Please contact Alicia Steele for questions or clarifications.


cc:     Kathy Rulon, Acting Chief of Staff
        Thomas Bellamy, Acting Chief Financial Officer
LIST OF RECOMMENDATIONS
WE RECOMMEND:

A.1. That the chief acquisition officer, in coordination with the agency program
coordinator, update the Peace Corps Manual section 731 to include formal guidance
on the use of convenience checks and specific requirements on refresher training for
cardholders. Specifically, Peace Corps Manual section 731 must:

       a. Define acceptable justifications for using convenience checks, required
       supporting documentation, and the process for requesting and issuing
       convenience checks.

       CONCUR: Guidance and procedures for using convenience checks were
       issued to Cardholders and Approving Officials on November 6, 2008 via
       email (see Attachment 1). However, we agree that the Peace Corps Manual
       Section 731 needs to be updated and will target to publish an update by June
       30, 2009.

       b. Require refresher training for cardholders at least every three years and
       establish a process for the agency program coordinator to receive and
       maintain training certificates.

       CONCUR: In the short term, OACM will issue an Acquisition Bulletin to
       Cardholders and Approving Officials to inform them of this requirement by
       April 30, 2009. A list of Cardholders and Approving Officials that meet the
       requirement for refresher training will also be identified and informed.
       OACM will also establish a tracking system of Cardholders and Approving
       Officials that require refresher training and will send out monthly notices.
       Finally, Peace Corps Manual Section 731 will be also updated to require
       refresher training every three years in accordance with A-123 by June 30,
       2009.

A.2. That the chief acquisition officer, in coordination with the agency program
coordinator, issue a memorandum to cardholders emphasizing the need for proper
conduct in areas identified as reoccurring problems to include the improper
purchase of refreshments and personal items.

CONCUR: Currently, OACM does perform transactional reviews and random
documentation reviews. Feedback is provided to individual Cardholders and
Approving Officials but OACM has not implemented quarterly reports as originally
planned to Cardholders and Approving Officials of systemic issues and problems that
are found during monthly reviews. By June 30, 2009, the Chief Acquisition Officer
will institute quarterly reviews of the Purchase Card Program to review and discuss
findings resulting from the transactional and documentation reviews. Findings that




                                         1
are found to be systemic will be published in a quarterly report and distributed to
Cardholders and Approving Officials.

A.3. That the chief acquisition officer, in coordination with the Office of General
Counsel, develop a policy that defines the process a cardholder must use and the
approvals necessary to purchase an item on the “Do Not Buy” list, including the
purchase of refreshments and furniture for personal use.

NON CONCUR: OACM does not believe that additional processes are necessary in
this area and the current processes in place and those that are planned (and mentioned
herein) are sufficient to prevent an unacceptable level of unauthorized purchases. We
believe the additional cost to establish a more stringent process does not support the
benefits.

Of the seven questionable transactions revealed by the audit totaling $3,083 only one
transaction of $50 could be validated as a clear cut case of an inappropriate purchase
and none were fraudulent or egregious in nature. Two transactions totaling $1,895
were valid and had prior approval by OACM. The remaining four transactions
totaling $1,138 are at best questionable and GAO has ruled that purchases of this type
(refreshments for ceremonies and training) are valid purchases when certain criteria
are met.

When the total number of FY07 purchase card transactions (13,315) totaling $6.3M
are considered, we believe the de minimis number of questionable transactions and
the associated cost (.00048%) of total spend) is testament to the strength of the Peace
Corps Purchase Card Program and its internal controls.

B.1. That the chief acquisition officer develop a process to verify the direct hire
status for all new cardholders before issuing a purchase card.

PARTIALLY CONCUR: During training (Purchase Card CBT and OST), it is
made clear to Cardholders and Approving Officials that only US direct hires and
Foreign Service Nationals are allowed to be Cardholders. We believe this training is
effective in that the OIG audit did not reveal a single instance where a purchase card
had been issued to a contractor. We also do not believe a new process is necessary to
verify the direct hire status. However, we can reinforce this requirement by
modifying the acknowledge and approval forms for new Cardholders to require the
Approving Official certify that the Cardholder is not a contractor (PSC or otherwise)
and that they are a US direct hire or Foreign Service National. Approving Officials
will be required to self certify on the acknowledgement and approval forms of their
US direct hire or Foreign Service National status.




                                           2
B.2. That the chief acquisition officer, in coordination with the agency program
coordinator, issue a policy memorandum reminding cardholders and approving
officials to notify the agency program coordinator immediately when transferring
offices or leaving the Peace Corps.

PARTIALLY CONCUR: The requirement to notify the Agency Program
Coordinator when a Cardholder and Approving Official depart the agency is
addressed in the Purchase Card training and MS 731. We do recognize that there
might be a need for reminders but believe that a one time memo reminding
Cardholders and Approving Officials of this requirement is probably insufficient. As
part of the quarterly report we plan to institute to communicate our monthly review
findings, we will periodically remind Cardholders and Approving Officials of the
requirement to notify the Agency Program Coordinator immediately if they depart the
agency or leave their current position.

B.3. The agency program coordinator ensure cardholder spending limits are
appropriate and supported by proper authorization. Specifically,

       a. Maintain documentation supporting the delegated procurement
       authority for all cardholder accounts including any permanent increases or
       decreases in the single purchase authority and monthly cycle limits.

       CONCUR: OACM does require supporting documentation and copies of the
       Cardholder’s delegated procurement authority to raise the single purchase limit.
       A request to increase the monthly cycle must also be documented and supported.
       These strict controls were not consistently being followed prior to mid FY07 and
       we recognize that there might be a few Cardholder files without adequate
       documentation to support their spending limit. OACM will review all Cardholder
       files to ensure they are up to date and include proper documentation by April 30,
       2009.

       b. Update overseas cardholder files to ensure that each file contains a copy
       of the most current re-delegated procurement authority and that the amount
       delegated to each cardholder is equal or more than the amount established in
       the Citibank card management system.

       CONCUR: OACM does require supporting documentation and copies of the
       Cardholder’s delegated procurement authority to raise the single purchase limit.
       A request to increase the monthly cycle must also be documented and supported.
       These strict controls were not consistently being followed prior to mid FY07 and
       we recognize that there might be a few Cardholder files without adequate
       documentation to support their spending limit. OACM will review all Cardholder
       files to ensure they are up to date and include proper documentation by April 30,
       2009.




                                           3
      c. Establish a written policy and procedure to reset the temporarily
      increased spending limits using the Citibank card management system
      expiration date field.

      NON CONCUR: The new Citibank card system permits an expiration date to be
      established when temporary spending limits are set. Based on the expiration date
      established, the system automatically resets to the permanent spending limit after
      that date. Therefore, it is not necessary to establish a written policy and
      procedure.

C.1. The Office of Acquisitions and Contract Management strengthen the
transactional review process, by:

     a. Developing standard operating procedures for the agency program
     coordinator and staff to use when conducting transaction and document
     reviews.

     NON CONCUR: In January 28, 2008, OACM developed and currently uses a
     checklist to ensure a consistent and thorough review (see Attachment 2). We
     believe the checklist along with training of the individuals assigned to manage the
     Program is sufficient for reviews of this nature. We will continue to evolve the
     checklist to make it more effective as new issues surface and will take advantage of
     the new Citibank data mining tools when they become available.

     b. Reviewing purchases to identify goods and services that may benefit from a
     blanket purchasing agreement or contract.

     NON CONCUR: One of OACM’s strategic goals is to pursue opportunities to
     streamline the acquisition process and save cost. A key strategy in
     accomplishing this goal is strategic sourcing. In 2006, OACM conducted an
     agency level spend analysis using PRISM data and Citibank purchase card data
     to identify recurring requirements and to facilitate strategic sourcing
     opportunities. Since then, OACM has established approximately 30 blanket
     purchase agreements or IDIQ contracts. The blanket purchase agreement that
     was established for advertising services (cited in the audit) resulted from a need
     identified in 2007. It’s important to note that many of these initiatives require
     the support of the using or requiring office and must compete with other
     priorities.

     OACM has and will continue to use blanket purchase agreements and other
     procurement strategies to support its strategic goals and objectives.

     c. Implementing the Citibank Data Mining software to identify transactions
     with potential problems.

     PARTIALLY CONCUR: The new Citibank Data Mining software is not yet
     functional. However when it does become available, OACM will take advantage of
     this new capability.


                                           4
C.2. The Office of Acquisitions and Contract Management develop a formal policy
and process for reviewing the purchases of auto-closed statements as a priority
before approving the purchase card invoice to detect potential misuse of purchase
cards.

NON CONCUR: A formal policy already exists to address auto-closed statements
(MS 731 paragraph 7-6). OACM sends an email to the Approving Official and
Cardholder immediately after the cycle closes to remind program participants to
review the monthly statement for accuracy and approve the statement so that it will
not auto-close. If a statement auto-closes, OACM sends the Approving Official an
email to confirm that all of the transactions are appropriate and approved. This auto-
close process verifies that the Approving Official is validating all transactions as
being correct and proper for payment from funds designated prior to purchase. It is
unrelated to the approval of the purchase card invoice for payment. One of the
driving factors of the Purchase Card program allows for Citibank (the purchase card
vendor) to be paid as soon as possible so that the Peace Corps can accumulate rebates
and therefore savings to the agency. If there are potential misuses or errors found by
either the Cardholder or Approving Official on the purchase card statement, a dispute
can be handled after the fact within a specific timeframe. If the Peace Corps wins the
dispute, the Cardholder’s statement is credited the appropriate amount. If the Peace
Corps loses the dispute, then no action is required as the statement has already been
paid.

As part of the Chief Acquisition Officer Program Reviews, auto close trends will be
reviewed and tracked to ensure compliance with the existing policy.

C.3. The Office of Acquisitions and Contract Management, in coordination with the
chief financial officer, improve the purchase card annual risk assessment to include
a discussion of each internal control standards and all elements required by Office
of Management and Budget Circular A-123, Appendix B. The Office of Acquisitions
and Contract Management must use the information gathered during risk
assessment to report the purchase card processes and controls to Peace Corps
management and the Office of Management and Budget.

NON CONCUR: OACM recognizes that previous reports to OMB may not have
addressed all of the internal control elements as outlined in A-123. However, the
Office of the Chief Financial Office (OCFO) is the agency lead for this program and
OACM provides information as requested by OCFO which is incorporated into the
report and submitted on behalf of the agency. We recognize OACM’s supporting role
but since OCFO is the agency lead, we do not believe responsibility for this finding is
properly assigned.




                                          5
APPENDIX D

                               OIG COMMENTS

Of the nine recommendations made in our report, management fully concurred with two
recommendations, partially concurred with two recommendations, nonconcurred with
three recommendations and nonconcurred with parts of two recommendations.

We closed recommendation B.1. Recommendations A.1, A.2, A.3, B.2, B.3, C.1, C.2 and
C.3 remain open pending confirmation from the chief compliance officer that the
following has been received:

       •   For recommendation A.1: a copy of the Acquisition Bulletin requiring
           refresher training and the revised PCM section 731 discussing convenience
           checks and the three year requirement for refresher training.

       •   For recommendation A.2: a copy of the quarterly report issued to cardholders
           and approving officials discussing reoccurring problems.

       •   For recommendation A.3: a copy of a written policy or procedures for
           purchasing items on the “Do Not Buy List.” OACM written policy and
           procedures must include requirements for General Counsel review and
           approval for any items to be purchased for items on the “Do Not Buy List” to
           ensure that the purchase meets legal principles.

       •   For recommendation B.2: a copy of the June 2009 quarterly report which must
           include a reminder to cardholders and approving officials to inform the APC
           before leaving the agency or transferring offices.

       •   For recommendation B.3: a copy of an OACM standard operating procedure or
           other guidance to include instructions on increasing spending limits and using
           the expiration date field.

           The explanations provided for parts a and b of recommendation B.3 were
           sufficient to close these parts of the recommendation.

       •   For recommendation C.1: a copy of a standard operating procedure or other
           guidance describing the process OACM will use to perform spending analyses
           and identify potential blanket purchase agreements. Documentation of
           implementation of the Citibank Data Mining software when available.

           The explanation and documentation provided for part a of recommendation C.1
           was sufficient to close this part of the recommendation.

       •   For recommendation C.2: copy of a standard operating procedure or other
           guidance describing the process OACM will use for approving auto-closed
APPENDIX D
           statements. These procedures need to include examples of the emails
           notifications to cardholders that allow auto-closed statement already
           incorporated in OACM process.

       •   For recommendation C.3: a copy of documentation describing how the OACM
           risk assessment will address key internal controls addressed in OMB Circular
           A-123, Appendix B.

In their response, management describes actions they are taking or intend to take to
address the issues that prompted each of our recommendations. We wish to note that in
closing recommendations, we are not certifying that they have taken these actions nor that
we have reviewed their effect. Certifying compliance and verifying effectiveness are
management’s responsibilities. However, when we feel it is warranted, we may conduct a
follow-up review to confirm that action has been taken and to evaluate the impact.
APPENDIX E

        AUDIT COMPLETION AND OIG CONTACT
AUDIT COMPLETION   Mr. Bradley Grubb performed the audit and Mr. Gerry
                   Montoya supervised.

OIG CONTACT
                   If you wish to comment on the quality or usefulness of this
                   report to help us strengthen our product, please e-mail
                   Gerald P. Montoya, Assistant Inspector General for Audit,
                   at gmontoya@peacecorps.gov, or call him at
                   (202) 692-2907.
        REPORT FRAUD, WASTE, ABUSE,
            AND MISMANAGEMENT

Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
general public. We actively solicit allegations of inefficient and
wasteful practices, fraud, and abuse related to Peace Corps
operations domestically or abroad. You can report allegations to
us in several ways, and you may remain anonymous.




Mail:          Peace Corps
               Office of Inspector General
               P.O. Box 57129
               Washington, DC 20037-7129

Phone:         24-Hour Toll-Free:                  (800) 233-5874
               Washington Metro Area:              (202) 692-2915


Fax:           (202) 692-2901

E-Mail:        oig@peacecorps.gov
